June 20, 2003

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Management Advisory – Supplier Certification
         (Report Number CA-MA-03-008)

This management advisory presents the results of our review of Supplier Certification
(Project Number 02XR005CA000). The review responds to a request from Postal
Service management to assist in determining the effectiveness of the current approach
of supplier self-certification by determining the accuracy of current supplier
certifications.

                                     Background
It is the policy of the Postal Service to establish and maintain a strong, competitive
supplier base that reflects the diversity of the American supplier community. The Postal
Service relies upon suppliers to self-certify their socioeconomic status at contract award
and uses this information to assess its success in promoting supplier participation
reflective of the American supplier community. On November 21, 2001, Postal Service
management requested our assistance in determining the effectiveness of the current
approach of supplier self-certification by determining the accuracy of current supplier
certifications.

                     Objectives, Scope, and Methodology
Our overall objective was to determine the effectiveness of the current approach of
supplier self-certification by determining the accuracy of current supplier certifications.
Additionally, based upon discussions with the Postal Service policies specialist, Supplier
Diversity, we expanded our scope to identify the instructions contracting officers
provided for supplier certifications. To accomplish these objectives we compared
Strategic National Automated Purchasing System data to supplier self-certification
forms contained in contract files or to contracting officer testimony. Additionally, we
compared Strategic National Automated Purchasing System data to third party
certification databases. We also telephoned suppliers to ascertain their socioeconomic
status and any instructions they received for certification. Finally, we contacted
contracting officers and identified instructions they provided for supplier certification.




                                    Restricted Information
Supplier Certification                                                                               CA-MA-03-008



We did not perform any additional tests to validate the accuracy of testimonial evidence
or third-party socioeconomic certifications. This review was limited to data gathering for
contract actions occurring between October 9 and November 21, 2002. Therefore, the
Office of Inspector General (OIG) does not express any opinion regarding the
effectiveness of the supplier self-certification process or the Postal Service’s supplier
diversity efforts as a whole. This review was performed from February 2002 to
June 2003.

                                         Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.

                                                    Results
We confirmed that supplier certification data for 58 of 88 suppliers with contract actions
occurring between October 9 and November 21, 2002, was accurate. Also, our
discussions disclosed that contracting officers did not always provide certification
instructions to suppliers in addition to representations and certifications contained in
the contract document. These results, summarized as follows, are limited to the
128 contract actions reviewed and are not necessarily reflective of the supplier base for
other periods.

Strategic National Automated Purchasing System data revealed that between October 9
and November 21, 2002, the Postal Service entered into 128 contract actions with small
minority or woman-owned businesses. We determined that there were 88 suppliers and
53 contracting officers associated with those 128 contract actions.

Twelve of the eighty-eight suppliers were also independently certified as small minority
or woman-owned businesses.1 Accordingly, we did not perform any additional steps to
verify accuracy.

Two of the eighty-eight suppliers were classified in the Strategic National Automated
Purchasing System as small minority or woman-owned businesses but actually
self-certified as large businesses. Management corrected these input errors during the
course of our review.

We attempted to contact the remaining 74 suppliers but did not receive responses from
28.2 We confirmed that supplier certification data for all of the 46 suppliers contacted
was accurate. Additionally, three advised that they received written or oral instructions
from contracting officers for certification in addition to representations and certifications


1
  These suppliers were independently certified by the Small Business Administration (seven), National Minority
Supplier Development Council (four), and Women’s Business Enterprise National Council (one).
2
  We attempted to contact the 28 suppliers a minimum of four times.




                                                         2
                                              Restricted Information
Supplier Certification                                                      CA-MA-03-008



contained in the contract document. However, the information was limited to filing
procedures and did not relate to socioeconomic status classifications.

We contacted all 53 contracting officers associated with the 128 contract actions to
identify the procedures they used for obtaining supplier certification. Our discussions
disclosed that during the contract process, contracting officers did not obtain
documentation other than representations and certifications to verify the socioeconomic
status of the supplier. Also, we found 25 contract actions where certification was
provided orally. Management’s comments, in their entirety, are included in the appendix
of this report.

Since this was a limited scope review, we did not offer any suggestions for program
improvement in this report.

Management thanked us for our assistance and indicated that they had corrected errors
identified during the course of the review. In addition, management will use the results
of our review as a baseline for continual assessment of their supplier certification
process.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, director,
Contracts and Facilities, at (651) 855-5856, or me at (303) 925-7429.



Colleen A. McAntee
Deputy Assistant Inspector General
 for Financial Management

cc: Richard J. Strasser, Jr.
    Gordon MacMahon
    Janice B. Williams-Hopkins
    Susan M. Duchek




                                              3
                                   Restricted Information
Supplier Certification                                     CA-MA-03-008



                         APPENDIX. MANAGEMENT’S COMMENTS




                                             4
                                  Restricted Information
